Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        MEDICARE COMPLIANCE
             REVIEW OF
        COMMUNITY REGIONAL
          MEDICAL CENTER




  Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affars@oig.hhs.gov




                                            Brian P. Ritchie
                                      Assistant Inspector General

                                               June 2013
                                             A-09-12-02071
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 Community Regional Medical Center did not fully comply with Medicare requirements
 for billing inpatient and outpatient services, resulting in overpayments of $1.1 million
 over 4 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represented 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

Our objective was to determine whether Community Regional Medical Center (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is, with certain
exceptions, intended to be payment in full to the hospital for all inpatient costs associated with
the beneficiary’s stay. CMS pays for hospital outpatient services on a rate-per-service basis that
varies according to the assigned ambulatory payment classification.

The Hospital is an acute-care hospital located in Fresno, California. Medicare paid the Hospital
approximately $541 million for 31,884 inpatient and 185,755 outpatient claims for services
provided to beneficiaries during CYs 2008 through 2011.

Our audit covered $3,283,707 in Medicare payments to the Hospital for 301 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 210
inpatient and 91 outpatient claims. Of the 301 claims, 280 claims had dates of service in
CYs 2008 through 2011, and 21 claims (in areas with a higher risk of billing errors) had dates of
service in CY 2012.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 71 of the 301 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 230 claims, resulting in overpayments of $1,075,310.
Specifically, 143 inpatient claims had billing errors, resulting in overpayments of $919,033, and
87 outpatient claims had billing errors, resulting in overpayments of $156,277. These errors



Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                      i
occurred primarily because the Hospital did not have adequate controls to prevent the incorrect
billing of Medicare claims within the selected risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,075,310, consisting of $919,033 in overpayments
        for the incorrectly billed inpatient claims and $156,277 in overpayments for the
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally agreed with our findings and
provided information on actions that it had taken or planned to take to address our
recommendations.




Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                   ii
                                                     TABLE OF CONTENTS


INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objective ................................................................................................................................1

           Background ............................................................................................................................1
                 The Medicare Program ..............................................................................................1
                 Hospital Inpatient Prospective Payment System .......................................................1
                 Hospital Outpatient Prospective Payment System .....................................................1
                 Hospital Claims at Risk for Incorrect Billing ............................................................2
                 Medicare Requirements for Hospital Claims and Payments .....................................2
                 Community Regional Medical Center .......................................................................3

           How We Conducted This Review..........................................................................................3

FINDINGS .........................................................................................................................................3

           Billing Errors Associated With Inpatient Claims ..................................................................4
                   Incorrect Billing for Patient Discharges That Should Have Been Billed
                     as Transfers .............................................................................................................4
                   Incorrect Billing of Medicare Part A for Beneficiary Stays That Should Have
                     Been Billed as Outpatient Services .........................................................................4
                   Incorrect Diagnosis-Related Groups ..........................................................................4
                   Manufacturer Credits for Replaced Medical Devices Not Reported
                     or Obtained..............................................................................................................5
                   Incorrect Provider Number Used ...............................................................................5

           Billing Errors Associated With Outpatient Claims................................................................6
                   Incorrect Billing of Healthcare Common Procedure Coding System Code
                     or Number of Units .................................................................................................6
                   Incorrect Billing of Medicare Part B for Outpatient Services Provided Before
                     or During Inpatient Stays ........................................................................................6
                   Manufacturer Credits for Replaced Medical Devices Not Reported
                     or Obtained..............................................................................................................7
                   Incorrect Billing of Drugs Not Administered to Beneficiaries ..................................7

RECOMMENDATIONS ...................................................................................................................8

HOSPITAL COMMENTS ................................................................................................................8

APPENDIXES
           A: Audit Scope and Methodology ........................................................................................9


Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                                                                  iii
        B: Risk Areas Reviewed and Billing Errors .........................................................................11

        C: Hospital Comments ..........................................................................................................12




Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                                                    iv
                                         INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represented 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Community Regional Medical Center (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000. Under the OPPS, Medicare pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification (APC). CMS uses Healthcare Common Procedure Coding System




Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                      1
(HCPCS) codes and descriptors to identify and group the services within each APC group. 1 All
services and items within an APC group are comparable clinically and require comparable
resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work identified these types of claims at risk for noncompliance:

    •    inpatient transfers,

    •    inpatient short stays,

    •    inpatient mechanical ventilation,

    •    inpatient claims billed with high-severity-level DRG codes,

    •    inpatient claims related to hospital-acquired conditions and present-on-admission
         indicator reporting,

    •    inpatient and outpatient manufacturer credits for replaced medical devices,

    •    outpatient claims billed for Lupron injections,

    •    outpatient claims for injectable drugs,

    •    outpatient claims billed before and during inpatient stays, and

    •    outpatient claims billed for doxorubicin hydrochloride.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                                     2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Community Regional Medical Center

The Hospital is an acute-care hospital located in Fresno, California. Medicare paid the Hospital
approximately $541 million for 31,884 inpatient and 185,755 outpatient claims for services
provided to beneficiaries during CYs 2008 through 2011. 2

HOW WE CONDUCTED THIS REVIEW

Our audit covered $3,283,707 in Medicare payments to the Hospital for 301 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 210
inpatient and 91 outpatient claims. Of the 301 claims, 280 claims had dates of service in
CYs 2008 through 2011, and 21 claims (in areas with a higher risk of billing errors, i.e., inpatient
transfers, Lupron injections, and other injectable drugs) had dates of service in CY 2012. We
focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary. This report focuses
on selected risk areas and does not represent an overall assessment of all claims submitted by the
Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                  FINDINGS

The Hospital complied with Medicare billing requirements for 71 of the 301 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 230 claims, resulting in overpayments of $1,075,310.
Specifically, 143 inpatient claims had billing errors, resulting in overpayments of $919,033, and
87 outpatient claims had billing errors, resulting in overpayments of $156,277. These errors
occurred primarily because the Hospital did not have adequate controls to prevent the incorrect
billing of Medicare claims within the selected risk areas that contained errors. For a detailed list
of the risk areas that we reviewed and associated billing errors, see Appendix B.




2
    These data came from CMS’s National Claims History file.


Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                        3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 143 of 210 selected inpatient claims, which resulted
in overpayments of $919,033.

Incorrect Billing for Patient Discharges That Should Have Been Billed as Transfers

Federal regulations state that a discharge of a hospital inpatient is considered to be a transfer if
the patient is readmitted the same day to another hospital unless the readmission is unrelated to
the initial discharge (42 CFR § 412.4(b)). A discharge of a hospital inpatient is also considered
to be a transfer when the patient’s discharge is assigned to one of the qualifying DRGs and the
discharge is to home under a written plan of care for the provision of home health services or to a
skilled nursing facility (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the
above circumstances is paid a graduated per diem rate for each day of the patient’s stay in that
hospital, not to exceed the full DRG payment that would have been paid if the patient had been
discharged to another setting (42 CFR § 412.4(f)).

For 86 of 210 selected inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that it should have billed as transfers. For these claims, the Hospital should have
coded the discharge status as a transfer to (1) home under a written plan of care for the provision
of home health services (83 claims), (2) an acute-care hospital (1 claim), (3) a skilled nursing
facility (1 claim), or (4) a non-acute-care facility (1 claim). However, the Hospital incorrectly
coded the discharge status as “discharged to home” or “left against medical advice”; therefore,
the Hospital should have received the per diem payment instead of the full DRG payment. The
Hospital stated that a more robust monitoring and auditing process was needed to review the
discharge status for patients discharged to home according to discharge orders. As a result of
these errors, the Hospital received overpayments of $406,649.

Incorrect Billing of Medicare Part A for Beneficiary Stays That Should Have Been Billed
as Outpatient Services

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 48 of 210 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that it should have billed as outpatient or outpatient-with-observation services.
The majority of these claims involved canceled surgical procedures. The Hospital attributed the
patient admission errors primarily to insufficient case management staffing, which resulted in a
failure to review all inpatient accounts for accurate admission status orders before billing
Medicare. As a result of these errors, the Hospital received overpayments of $401,519.

Incorrect Diagnosis-Related Groups

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed



Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                       4
body member” (the Act, § 1862(a)(1)(A)). The Manual states: “In order to be processed
correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 5 of 210 selected inpatient claims, the Hospital billed Medicare with incorrect DRGs. For
example, for two claims, the Hospital billed a DRG for use of a mechanical ventilator for more
than 96 hours rather than billing the DRG for use of a mechanical ventilator for fewer than
96 hours. The Hospital stated that additional education, monitoring, and auditing was needed to
identify possible areas of concern. As a result of these errors, the Hospital received
overpayments of $68,436.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of the device, or (3) the provider receives a credit equal to 50 percent or more
of the device cost (42 CFR § 412.89(a)). The Manual states that to correctly bill for a
replacement device that was provided with a credit, hospitals must code Medicare claims with a
combination of condition code 49 or 50 (which identifies the replacement device) and value code
FD (which identifies the amount of the credit or cost reduction received by the hospital for the
replaced device) (chapter 3, § 100.8). Federal regulations state: “All payments to providers of
services must be based on the reasonable cost of services …” (42 CFR § 413.9). The CMS
Provider Reimbursement Manual (PRM) reinforces these requirements in additional detail. 3

For 3 of 210 selected inpatient claims, the Hospital either (1) received a reportable medical
device credit from a manufacturer but did not adjust its inpatient claims with the proper
condition and value codes to reduce payment as required (2 claims) or (2) did not obtain a credit
for a replaced medical device for which a credit was available under the terms of the
manufacturer’s warranty (1 claim). The Hospital stated that an enhanced internal control was
needed to identify, obtain, and properly report credits from device manufacturers. As a result of
these errors, the Hospital received overpayments of $27,025.

Incorrect Provider Number Used

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2).



3
  The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service. If costs are determined to exceed the level that such buyers
incur, in the absence of clear evidence that the higher costs were unavoidable, the excess costs are not reimbursable
under the program” (part I, § 2102.1). Section 2103 further defines prudent buyer principles and states that
Medicare providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full or partial
credits available under the terms of the warranty covering the replaced equipment. The credits or payments that
could have been obtained must be reflected as a reduction of the cost of the equipment.”


Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                                     5
For 1 of 210 selected inpatient claims, the Hospital billed Medicare using its own provider
number for services provided by a different hospital within its hospital chain. The Hospital
attributed this to an error in its billing system, which failed to recognize that the wrong provider
number was used. As a result of this error, the Hospital received an overpayment of $15,404.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 87 of 91 selected outpatient claims, which resulted
in overpayments of $156,277 (1 claim had 2 types of errors).

Incorrect Billing of Healthcare Common Procedure Coding System Code
or Number of Units

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed”
(chapter 4, § 20.4).

For 73 of 91 selected outpatient claims, the Hospital submitted claims to Medicare with the
incorrect HCPCS code or an incorrect number of units:

     •   For 59 claims, the Hospital billed Medicare with the incorrect HCPCS code.
         Specifically, the Hospital billed the incorrect HCPCS code for a drug available in two
         separate dosages, each assigned its own HCPCS code and separately packaged. For one
         of these claims, the Hospital also billed the incorrect number of units.

     •   For 14 claims, the Hospital billed Medicare with an incorrect number of units. For
         example, for seven claims, the Hospital billed for a full vial of a cancer drug when only
         a partial vial was administered.

The Hospital stated that these errors occurred because its system was configured to select the
incorrect HCPCS code and was not set up to charge for partial “single dose” vials. As a result of
these errors, the Hospital received overpayments of $131,327.

Incorrect Billing of Medicare Part B for Outpatient Services Provided Before or During
Inpatient Stays

Medicare Part A covers certain items and nonphysician services furnished to inpatients;
consequently, the IPPS rate covers these services (the Manual, chapter 3, § 10.4).

For 10 of 91 selected outpatient claims, the Hospital incorrectly billed Medicare Part B for
outpatient services provided within 72 hours before or during inpatient stays. For seven of these
claims, the Hospital had provided services, such as endoscopies, to inpatients of other hospitals.
However, the Hospital incorrectly billed Medicare Part B for these services rather than the other



Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                        6
hospitals. In each of these cases, the outpatient services should have been included as part of the
Part A IPPS payment to the other hospital. For the remaining three claims, the services should
have been included on the Hospital’s inpatient (Part A) claims to Medicare. The Hospital stated
that human error caused the incorrect billing. As a result of these errors, the Hospital received
overpayments of $12,285.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45(a)).

CMS guidance explains how a provider should report no-cost and reduced-cost devices under the
OPPS.4 For services furnished on or after January 1, 2007, CMS requires the provider to report
the modifier -FB and reduced charges on a claim that includes a procedure code for the insertion
of a replacement device if the provider incurs no cost or receives full credit for the replaced
device. If the provider receives a replacement device without cost from the manufacturer, the
provider must report a charge of no more than $1 for the device. In addition, Federal regulations
state: “All payments to providers of services must be based on the reasonable cost of
services …” (42 CFR § 413.9). The PRM reinforces these requirements in additional detail. See
footnote 3 on page 5.

For 2 of 91 selected outpatient claims, the Hospital either (1) received full credit for a replaced
device but did not report the -FB modifier and reduced charges on its claim (1 claim) or (2) did
not obtain a credit for a replaced device for which a credit was available under the terms of the
manufacturer’s warranty (1 claim). The Hospital stated that an enhanced internal control was
needed to identify, obtain, and properly report credits from device manufacturers. As a result of
these errors, the Hospital received overpayments of $8,454.

Incorrect Billing of Drugs Not Administered to Beneficiaries

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2).

For 2 of 91 selected outpatient claims, the Hospital billed Medicare for drugs that were not
administered to the beneficiaries. For example, for one of these claims, the physician canceled
the order for a cancer drug; however, the drug was included on the Hospital’s outpatient (Part B)
claim to Medicare. The Hospital stated that because of human error, it did not reconcile the
charges with the administered drug labels and the physicians’ orders. As a result of these errors,
the Hospital received overpayments of $4,211.


4
    CMS Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3.


Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                       7
                                     RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,075,310, consisting of $919,033 in overpayments
        for the incorrectly billed inpatient claims and $156,277 in overpayments for the
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                    HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally agreed with our findings and
provided information on actions that it had taken or planned to take to address our
recommendations. The Hospital’s comments are included in their entirety as Appendix C.




Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $3,283,707 in Medicare payments to the Hospital for 301 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 210
inpatient and 91 outpatient claims. Of the 301 claims, 280 claims had dates of service in
CYs 2008 through 2011, and 21 claims (in areas with a higher risk of billing errors, i.e., inpatient
transfers, Lupron injections, and other injectable drugs) had dates of service in CY 2012.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital in September and October 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2008 through 2011 and for CY 2012 for 21 claims;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2008 through 2011;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 301 claims (210 inpatient and 91 outpatient claims) for detailed
        review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been canceled or adjusted;



Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                      9
    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
        claims;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                  10
              APPENDIX B: RISK AREAS REVIEWED AND BILLING ERRORS



                                                                                Claims
                                                                 Value of        With
                                                   Selected      Selected       Over-        Value of
                  Risk Area                        Claims        Claims        payments    Overpayments
Inpatient

Transfers                                             95        $1,658,862           95         $472,918

Short Stays                                          101            888,143          42          350,493

Mechanical Ventilation                                 2             64,548           2           42,293
Manufacturer Credits for Replaced Medical
                                                       5            131,435           3           27,025
Devices
Claims Billed With High-Severity-Level
                                                       5            212,448           1           26,304
DRG Codes
Hospital-Acquired Conditions and
                                                       2             17,337           0                 0
Present-on-Admission Indicator Reporting
 Inpatient Totals                                    210        $2,972,773           143        $919,033



Outpatient

Claims Billed for Lupron Injections                   61          $161,859           61         $103,880

Claims for Injectable Drugs                           14             77,316          14           31,658
Claims Billed Before and During Inpatient
                                                      10             12,285          10           12,285
Stays
Manufacturer Credits for Replaced Medical
                                                       3             49,257           2            8,454
Devices
Claims Billed for Doxorubicin
                                                       3             10,217           0                 0
Hydrochloride
 Outpatient Totals                                    91          $310,934           87         $156,277



 Inpatient and Outpatient Totals                     301        $3,283,707           230      $1,075,310




   Medicare Compliance Review of Community Regional Medical Center (A-09-12-02071)                 11
                                  APPENDIX C: HOSPITAL COMME NTS 




                                                                      ~                        

                                                        COMMUNiTY
                                                           M.EiliCAL C ENTERS

                                                                                              CERTIFIED MAlL OEUVERY

       Uri A. Ahlstrand
       Regional Inspector General for Audit Services
       Department of Healdt and Human Service
       Office of Inspector General
       Office o f Audit Services, Region IX
       90-7'" Street. Suite 3-650
       San Francisco. CA 94103

       Re: Audit A·09· 12-02071-Medicare Compliance Review ofConm10nity Regional Medical
       Center for Calendar Ycars 2008 and 20 I l

       Dear Ms. Ahlstrand:

       Tam writing on behalf of Community Regional Medical Center (the "Hospital"), which is in
       receipt of the above referenced draft audit report. The Hospital strives to create a culture that
       promote~ underStanding aod adherence to applicable federal, state and local Jaws and
       regulations. This includes the implementation of operational procedures and cot>trols to
       minimize the risk of billing errors. An effective internal control system will not prevent or
       de:ect all errors. Overpayments and underpayments can occur due to human e-rror by an
       internal or external indiv;dual. An effective hospital internal contro 1system provides
       re:.sonable, but not absolute, assurance that claims billed to Medicare "; n comply with
       Medicare laws and regulations.

       \Ve have revie\'o'ed in de-tail your office•s findings in t11e draft report. In general. we agree that
       23) of the 30 I claims audited were found to contain some fonn of error that aftects
       reimbursement. We have reimbursed the full overpayment amount as determined by your
       au1it. We have a continuous process to review and strengthen internal billing controls to
       ensure compliance with Medicare requirements and we wiU continue to monitor.

       The Hospital has reviewed th.e recommendations in the report and bas responded as follows:
           The amo unt o f $ 1,075,3 10 whic h is identified as an overpayment in the report,
           specifically • 143 inpatient clain1s bad billing errors, resulting in ovecrpayments of
           $9 19,033, and 87 outpatiem claims had billing errors, resulting in overpayments of
           $I 56,277 bas been refunded through corre<:tioo and resubtnission of involved claims 10
           our CMS contractor.




                       ( II:M$C..-N:rllellc#Ctntt • f;,fn-~ 'I!Q'~~ot1:1~'-''' • ~rat• <~•~ A !U9(1!1r!OU:ll:iil • Cl!II.J<U~ocw-c.w­
                    c_,-uttr!tt .__I!U'~~~      • o:r-~orv_.,. Ol•t~<4lil'.:a • e;,.,__.,lNre;t"n •· f-~ • c:n ...."Cf*CICiiiC.W"''$~
                       OfWtt ~·     ' ,.,...,..,_,t'Mf••· c-•••    SPQIIT ~·• • ~ ~.a~"• eneo:n. · to:Jnon~~ ~·




Ma:liccue C'omplia1ce Review of Com~~U>i!y RR.giond Medica Cenmr (11-09-12-02071)                                                       12
       lllay 24, 2013
       Page 2 of 4




       Billing errors associated with inpatient claims.

           I . 	 Incorrect Billing for Patient Discha1·ges That Should Have Been Billed as Transfers.
                 (86 of21 0 cla.ims) .
               Although the Hospital had internal controls in place for '~Discharge Disposition'· this
               can continue to be a problem for hospitals. A patient is d ischarge horne with such
               discharge orders noted in the medical re::ord and is coded as such. Ifrhe patient
               decides after being discharge home to seek other healthcare services the hospital does
               not bave knowledge ofsuch. Errors occurred because patients sought alternative
               health care services at other facil ities wirboutthe Hospital's knowledge. The intake
               facility and the fiscal intennediary do not notify the hospital. A few situations noted
               the coding s taff did not identify the disposition status information in the plan of care
               and the physician•s final orders indicate:l the patient was to be sem home. We have
               implemented a process for retrospective review ofcoding/ billing disposition
               assignment to ensure the medical reco.rd document discharge orders and instn.tc-tions
               march the code that was utilized for billing disJ)()sitioo.

           2. 	 Although the I lospital bad internal coonols in place to further enhance and strengthen
                the Hospital's controls, we bave taken the following steps:

                     a..   Incorrect Billing ofPnn A for Btncficinry Stny:<J That S hou.ld Hnvc Seen
                           BiJJed as Outpatient Services. (48 of 210 claims).
                           Inpatient Claims should have been outpatient o r outpatient-with-observation.
                           The Hospital has addressed stafl:ing and implemented new internal control
                           process to addressed tbe patient ndmission errors !bat were due 10 primarily
                           !are night and weekend admissioos through the emergency department and
                           insufficient case management staffmg, which resulted in a failure to rcvi~-w all
                           accounts before billing Me-dicare.

                     b. 	 Incorrect Diagnosis-Related G=ps. ( 5 of2 I 0 claims). Hw:nan Error­
                          Education. We bave reviewed t!IDse errors w ith the individuals and
                          departments invol ved and proviced additional education wi th the purpose of
                          avoiding recurrence. \\le wilJ continue to monitor.


                     c. 	 Manufacturer Credits for Replaced    ~ledical Qe,~ces   Kot ReJ)()rled or
                          Obtained. (3 of2 10 claims).
                           The process for assuring medica device credits are properly reflected on
                           Medicare c laims is complex. The Hospital bas strengthened their controls by
                           identifying and assigning proper communication I coordination between
                           various departments to assure credits are accurately reflected and coded on
                           claims.




Me dic aNI Complianc eRe>t'ew ofCommunit)' Regional Medi cal Ce>tter (A-09-12-020 71)                         13
         May 24, 2013
         Page3of4




                    d. Incorrect Provider Number Used. (I of 210 claims). T he Hospi!al had a
                        system conversion and the system failed 10 recognize the wrong provider
                        nwnber and .error was not caprured. The systems now have edits in place to
                        capture such errors.
         Billing errors associ.ated with outpatie nt cla im s..

             I. 	Although the Hospital had internal controls in place to furtbe. enhance and strenglben
                 the Hospital's controls, we have taken the following steps:

                    a. 	 Incorrect Billing ofdrug HCPCS Code (59 of91 claims) or incorrect number
                        ofunits (1 4 of91 claims).
                        New internal control processes for conununication and implementation ofall
                        charge code additions, changes and deletions have been implemented,
                        conununicated and is being monitored. Any errors identified through an edit
                        process will be communicated to all departments and identified claims adjusted
                        appropriately.

                    b. 	 Incorrect Billing of Pan B for outpatient Services Provided Before or During
                         Inpatient Stays. (10 of91 claims).
                        Human error caused the incorrect billing. We-have reviewed those errors \Atith
                        the individuals and departments involved and provided additional education
                        with the purpose ofavoiding recurrence.

                    c. 	 Manufacturer Credits lor replacement Medical Devices not reported or
                         obtained (2 o f 91 claims).
                        The process for assuring medical de,~ce credits are properly reflec ted on
                        Medicare claims is complex. The Hospital bas strengthened Uteir controls by
                        identifying and assigning proper communication I coord ination between
                        various depanmcnts to assure credits are accurately reflected and coded on
                        claims.

                    d. 	 Incorrect Billing of Drug~; not administrated to Beneficiaries. (2 of91 claims).
                        Human error caused dle incorrect bill ing. V/e have reviewed those errors wilh
                        the individuals and depanments involved and provided additional education
                        with the purpose of avoiding recurrence.

         Community Regional Medical Center takes its compliance obligations very seriously. With
         respect to all the claims subject to audi1, the Hospi!al re,<iewed its relevant internal processes
         and controls and where necessary, made adjustments to enhance irs compliance etlorts and
         processes. We would like to thank the 0 10 auditors who conducted the review ofCommunity
         Regional Medical Center M edicare Claims for their professionalism. time, oollaboralion,




Medicare Complia.ce Rrn'ew ofCommu,..ty RR.efcmal Medea/ Center (A·09. J2.0207J) 	                            u
         Mav     2•.
                2013
         Page 4of 4




         commwtication, cooperation~ and collegial ity. Please fee l free to cal l me if you have any
         questions about the Hospital's efforts in this regard or if you require additional infom1ation.
         \Ve look forward to your respo nse.




         Debra A. :Vtuscio, MBA.
         SVP, Chief Audit and Compliance Officer
         Community Medical Centers

         789 N. Medical Center Drive East
         Clovis, CA 9361 1-6878
         (559)-324-4830
         dntuscio@co mmunirvmedical.ore.


         cc: 	     Tim A Joslin, President and CEO, Community Medica l Center.;
                   Jack Chubb, CEO of Community Regional Medical Ceoter




Me di care Comp!iaxce Rs><'ew of Contnut ni!)> Regioxa! Medical   Cl!~tter   (A-09-1 2-02071}              15
